                                                2 0 0 3



S e m i a n n u a l      R e p o r t

Office of the Inspector General




                 April 1 ~ September 30, 2003
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA)
Board of Directors and Congress on
the overall efficiency, effectiveness,
and economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
investigations, and other reviews.

The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse; (2) viola-
tions of laws, rules, or regulations;
and (3) inefficiencies in TVA programs
and operations.

If you want to report any matter
involving TVA programs, operations,
or employees, you should call the
OIG Hotline or write the Inspector
General’s office at the address or
number listed on the back cover.
Office of the Inspector General
Tennessee Valley Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401


Richard W. Moore
Inspector General


                                                           October 31, 2003




TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS

         This is my first report to the Board of Directors and to the United States Congress after being nominated
by President Bush in February and later confirmed by the United States Senate in May. I am appreciative of the
trust and confidence placed in me by the President given what I view as significant challenges for both my office
and TVA. President Bush met with the Inspectors General (IGs) in Washington on October 14, 2003, and
expressed his support of our efforts to bring about good government in our respective federal agencies. The
President met with us in the Indian Treaty Room of the Eisenhower Executive Office Building to underscore his
commitment to achieving the necessary changes in government to make it work better for the American people.
He noted that IGs are regarded as “agents of positive change.” Our meeting with the President was part of our
celebration of the 25th anniversary of the enactment of the IG Act.

         These past six months have confirmed my belief that the OIG at TVA has an admirable history of pro-
moting positive change. That has been true despite the inherent limitations that come with IGs having been pre-
viously appointed by the Board rather than the President. Promoting positive change is not always universally
heralded in federal agencies, and IGs must have absolute independence in their audits and investigations if their
work is to be credible. In 2000, Congress recognized the need for greater independence for the IG at TVA by
enacting Public Law No. 106-422 which converted the IG from Board-appointed to one appointed by the
President with the advice and consent of the Senate. My commitment, given this new level of independence, is
to ensure that we continue to promote excellence at TVA and to do so with increased vigor. I firmly believe that
TVA will benefit from a truly independent IG, and Congress will be better served in its oversight responsibilities of
TVA.

         The OIG here at TVA is blessed with a cadre of highly trained professionals who until my appointment
were ably led by Acting IG Don Hickman. Under Mr. Hickman’s leadership, significant accomplishments were
achieved as noted in prior reports to the Board and to Congress. I appreciate Mr. Hickman’s commitment and
leadership which continue to be an asset to our office.

         As this report indicates, we have tackled significant issues, and we have made progress in protecting
TVA’s assets and in identifying ways that programs can be better run. Perhaps more importantly, we serve the
equally important role of deterring others who witness our aggressive audits and investigations.
TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS
Page 2
October 31, 2003




          As a former federal prosecutor, I am particularly sensitive to fraud indicators in an organiza-
tion. Systemic fraud is easily perpetrated when controls are weak and the financial incentive is high.
We have marshaled the talents of some of our best auditors and investigators to focus on fraud
against TVA. The Inspections unit in Chattanooga has been charged with the mission of identifying
fraud against TVA and following the evidence wherever it leads. I have every reason to believe they
will be successful.

         Finally, I want to acknowledge the many courtesies extended to me by Chairman
McCullough, Director Baxter, and Director Harris in assisting me during this transition time. Their con-
tinued recognition of the importance of the work of the OIG at TVA has been encouraging. We are all
fortunate to live and work in East Tennessee and the Tennessee Valley Region, and I look forward
making progress together over the coming years.

                                                           Very truly yours,
Executive Summary                                                                                    1

TVA Profile                                                                                          2

Office of the Inspector General                                                                      3




                                                                                                             T A B L E
Special Features                                                                                     6

Audits                                                                                               9

Investigations                                                                                      14

Legislation and Regulations                                                                         22




Appendices                                                                                          24




                                                                                                             O F
Appendix 1 Index of Reporting Requirements Under the Inspector General Act                          25

Appendix 2 Audit Reports Issued                                                                     26

Appendix 3 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds   29

Appendix 4 Audit Reports With Corrective Actions Pending                                            31




                                                                                                             C O N T E N T S
Appendix 5 Investigative Referrals and Prosecutive Results                                          34




Highlights                                                                                          35




                                                               SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                             During this reporting period, we contin-           We closed 92 investigations, including
                             ued to support TVA by conducting objec-            multi-agency task force projects, which
                             tive audits, investigations, and other             led to (1) over $1.39 million in recoveries,
S U M M A R Y


                             projects. In accordance with our                   projected savings, and fines/penalties;
                             mission, our reviews are designed to               (2) administrative or disciplinary action
                             promote economy, effectiveness, and                against 24 individuals; and (3) other
                             efficiency while detecting and preventing          corrective action, such as counseling and
                             fraud, waste, and abuse. In total, we              management techniques, in 21 cases.
                             identified over $10 million in recoveries,         Matters we investigated included
                             fines/penalties, potential savings,                employee misconduct, contract issues,
                             questioned costs, or funds which could             health care fraud, and environmental
                             be put to better use.                              crimes. Our investigative activities led to
                                                                                the indictment of four subjects and
                             We completed 34 audits and 15 nonaudit
                                                                                conviction of ten.
                             service engagements during this report-
                             ing period, identifying nearly $9 million in       In addition, during this reporting period
                             potential savings. These reviews                   we created an Inspections unit which will
                             included (1) pre- and postaward contract           operate out of our Chattanooga office.
                             audits, (2) other financial-related audits,        The primary responsibility for this unit will
                             (3) information technology (IT) reviews,           be to identify fraud against TVA and
E X E C U T I V E




                             and (4) performance reviews of TVA                 develop cases for criminal prosecution as
                             operations. As part of our oversight role          warranted. The Inspections unit will be
                             of TVA financial reporting, we performed           based on a task force model that will pair
                             reviews of Pricewaterhouse Coopers’                auditors with investigators. They will also
                             work on TVA’s quarterly financial informa-         identify weak controls in TVA programs
                             tion. In addition, in conjunction with             that make them vulnerable to fraud. We
                             Information Services, we used audit,               staffed the office with a former federal
                             investigative, and contract resources to           prosecutor who will lead the team, an
                             continue conducting an assessment of IT            Inspections department composed of
                             security throughout TVA. Corrective                auditors and an Investigations
                             actions in response to our audits                  department consisting of criminal
                             included monetary recoveries, process              investigators.
                             improvements, and security
                             enhancements.




          T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L      1
                                                 TVA manages the nation’s fifth largest
                                                 river system. TVA dams are part of a
                                                 totally integrated resource management
                                                 system where each dam operates in
                                                 relationship to the others for multiple pur-
                                                 poses and public benefits. These
                                                 include navigation, flood control, power
TVA is a federal corporation established         supply, land use, water quality, and
in 1933 to provide flood control, naviga-        recreation.
tion, and electric power in the Tennessee




                                                                                                T V A
Valley region. Today TVA is the nation’s         TVA contributes to the Valley economy
largest public power company and a               chiefly by keeping power rates competi-
regional development agency that sup-            tive, which helps attract and retain indus-
plies low-cost reliable power, supports a        tries that provide quality jobs in the
thriving river system, and stimulates sus-       region. TVA also helps communities pro-
tainable economic development in a               mote sustainable economic development
service area that covers 80,000 square           by providing assistance in job creation




                                                                                                P R O F I L E
miles in the Southeastern United States,         and retention and productivity improve-
including almost all of Tennessee and            ments via capital investment, support of
parts of Mississippi, Kentucky, Alabama,         business incubators, specialized techni-
Georgia, North Carolina, and Virginia.           cal services and advice, and recruitment
                                                 for new and existing industries.
TVA generates power at 11 coal-burning
plants, 3 nuclear plants, 29 hydroelectric       The TVA power system pays its own way
dams, 1 pumped-storage plant, and                by selling electricity and issuing bonds.
6 combustion turbine sites. TVA also             The system does not use tax dollars. In
produces energy from three renewable             addition, TVA no longer receives con-
sources––sun, wind, and methane gas              gressional appropriations to help fund its
from waste––and is building the first            navigation, flood control, environmental
United States flow battery energy stor-          research, and land management activi-
age system that can store electricity            ties. These programs are funded by
available during periods of lower power          power revenues.
demand for use during times of peak
                                                 TVA is governed by a three-member
demand. TVA provides electric power to
                                                 Board of Directors appointed by the
158 local power distributors, 54 large
                                                 President and confirmed by the Senate.
industries, and 8 federal agencies
                                                 Glenn L. McCullough, Jr., is Chairman,
through a network of more than
                                                 and Skila Harris and Bill Baxter are
17,000 miles of transmission lines. TVA
                                                 Directors.
also sells power to 12 surrounding utili-
ties on the interchange market.


                                             2   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                                  Office Authority                                  Organization
OFFICE OF THE INSPECTOR GENERAL


                                  TVA’s OIG was created by the TVA Board            During the majority of this reporting
                                  of Directors in October 1985. It became           period, the OIG consisted of two major
                                  statutory under the IG Act Amendments             operational units––Audits and
                                  of 1988. Those amendments estab-                  Investigations. However, at the end of
                                  lished OIGs at TVA and 32 other agen-             the reporting period we created an
                                  cies with IGs appointed by the agency             Inspections unit, headed by an Assistant
                                  heads. The authority to appoint the TVA           IG (AIG) for Inspections. The following
                                  IG was transferred to the President in            description applies to the office subse-
                                  November 2000 by Public Law                       quent to the creation of Inspections.
                                  No. 106–422.
                                                                                    Audits consists of three departments.
                                  The IG is responsible for conducting              One is devoted to both pre- and
                                  audits and investigations relating to TVA         postaward contract audits, one
                                  programs and operations while keeping             incorporates financial and operational
                                  the TVA Board and Congress fully and              audits, and the third focuses on
                                  currently informed about problems and             IT-related issues.
                                  deficiencies relating to the administration
                                                                                    Investigations consists of three depart-
                                  of TVA programs and operations. TVA’s
                                                                                    ments. One focuses on identifying and
                                  IG is independent and subject only to the
                                                                                    investigating potential misconduct and
                                  general supervision of the TVA Board of
                                                                                    integrity issues. The second focuses on
                                  Directors. The IG’s authority includes
                                                                                    computer crimes, computer forensic
                                  conducting any audits or investigations
                                                                                    support during investigations, and health
                                  the IG deems necessary or desirable,
                                                                                    care fraud. The third department, which
                                  issuing subpoenas, administering oaths,
                                                                                    has a dotted line reporting relationship to
                                  and granting confidentiality to individuals
                                                                                    the AIG for Inspections, will seek out
                                  who provide information to the OIG.
                                                                                    fraud.

                                                                                    Inspections consists of two departments.
                                                                                    In addition to the Financial Investigations
                                                                                    department, a Financial Inspections
                                                                                    department is staffed by auditors. The
                                                                                    Inspections unit will function as a joint
                                                                                    audit/investigative task force.




            T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L        3
TVA’s First Presidentially                        Staffing and Budget




                                                                                                OFFICE OF THE INSPECTOR GENERAL
Appointed Inspector
General                                           The OIG’s primary location is in the TVA
                                                  headquarters in Knoxville, Tennessee.
Effective May 9, 2003, Richard W. Moore           The OIG also has a satellite office with
became TVA’s first Presidentially                 12 people located in Chattanooga,
appointed IG. Prior to becoming the IG,           Tennessee, and a 1-person office at the
Mr. Moore was an Assistant U.S. Attorney          Browns Ferry Nuclear Plant (BFN) in
in the southern district of Alabama where         Alabama.
he served as the Anti-Terrorism Task
                                                  We offered a workforce optimization pro-
Force Coordinator. Mr. Moore supervised
                                                  gram during this reporting period, which
the investigations of suspected terrorist
                                                  led to nine OIG employees retiring. We
activities in the Mobile area. He previous-
                                                  intend to utilize these vacancies primarily
ly served as Senior Litigation Counsel at
                                                  to staff the Inspections unit in
the U.S. Attorney’s Office, where he spe-
                                                  Chattanooga. The OIG’s fiscal year
cialized in the prosecution of white-collar
                                                  2003 budget is $8.5 million, with a bud-
fraud. He also was an Atlantic Fellow in
                                                  geted headcount of 90 employees.
Public Policy at Oxford University, Oxford,
England, during 1997, where he focused
on the prosecution of complex interna-
tional fraud cases.




                                              4   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
OFFICE OF THE INSPECTOR GENERAL

                                                                                   Inspector General




                                                                                                                           Human Resource
                                        Legal Counsel
                                                                                                                              Manager




                                     Assistant Inspector                           Assistant Inspector                            Assistant Inspector
                                      General (Audits)                            General (Investigations)                       General (Inspections)


                                           Contract Audits                                 Financial Investigations                       Financial Inspections


                                           Financial/Operational                           Information Technology
                                           Audits                                          Investigations

                                           Information Technology
                                                                                           Internal Investigations
                                           Audits



                                                                                       Contacts

                                  Inspector General                                                   Financial/Operational Audits Manager
                                  Richard W. Moore . . . . . . . . . . .(865) 632-4120                Vacant . . . . . . . . . . . . . . . . . . . .(865) 632-2272

                                  Legal Counsel                                                       Information Technology Audits Manager
                                  Richard P. Levi . . . . . . . . . . . . . .(865) 632-6197           Jill M. Matthews . . . . . . . . . . . . .(865) 632-4730

                                  Human Resource Manager                                              Audit Quality Manager
                                  Kay T. Myers . . . . . . . . . . . . . . . .(865) 632-7718          Paul E. Ivie . . . . . . . . . . . . . . . . .(865) 632-2272

                                  OIG Media Relations                                                 Information Technology Investigations
                                  Anne B. Ferrell . . . . . . . . . . . . . .(865) 632-3505           Manager
                                                                                                      Curtis D. Phillips . . . . . . . . . . . . .(865) 632-2584
                                  Assistant Inspector General (Audits)
                                  Ben R. Wagner . . . . . . . . . . . . . .(865) 632-2272             Internal Investigations Manager
                                                                                                      C. Dale Hamilton . . . . . . . . . . . .(865) 632-3956
                                  Assistant Inspector General (Investigations)
                                  G. Donald Hickman . . . . . . . . . .(865) 632-7720                 Financial Investigations Manager
                                                                                                      Michael G. Duncan . . . . . . . . . . .(423) 751-7821
                                  Assistant Inspector General (Inspections)
                                  Charles A. Kandt . . . . . . . . . . . .(423) 751-6761              Financial Inspections Manager
                                                                                                      Deborah A. Kearnaghan . . . . . . .(423) 751-3113
                                  Contract Audits Manager
                                  David P. Wheeler . . . . . . . . . . . .(865) 632-4770



                                                      Hotline to report fraud, waste, and abuse: 1-800-323-3835
                                                                    OIG website: http://oig.tva.gov




            T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                             5
New Inspections Unit to                            difficult to detect, and the investigations
                                                   are time intensive. We have committed
Ferret Out Fraud
                                                   the resources necessary to address the

During this reporting period, the OIG              level of risk of fraud at TVA. In course of

created an Inspections unit located in             the Inspections unit’s work, the controls




                                                                                                 S P E C I A L
Chattanooga, Tennessee. The mission                on TVA programs will be evaluated to

of the Inspections unit is to identify fraud       determine if they are part of the problem

against TVA and seek prosecution of                and foster fraud. Like any corporation

those who commit that fraud. The unit              today, TVA cannot afford to be the victim

will combine the skills of auditors and            of significant fraud. The cost of such

investigators who will work together as a          fraud is ultimately borne by the

joint task force. This focused and                 ratepayers of TVA.

aggressive approach to detecting fraud
                                                   Charles A. Kandt, a former Assistant
is expected to reap significant results for
                                                   U.S. Attorney, will lead the new
TVA.
                                                   Inspections unit in Chattanooga.

Companies as expansive as TVA histori-             Mr. Kandt has supervised the work of

cally have been the subject of fraudulent          task forces as a prosecutor, and his

schemes. Currently, TVA is spending                experience in building criminal cases to

millions of dollars in the purchase of             take to the U.S. Attorney’s Office will be




                                                                                                 F E A T U R E S
fossil fuels, the startup of BFN, and a            invaluable. The Inspections unit will also

variety of other contracted services.              provide management at TVA with their

These are fraud-prone areas for a variety          reviews of deficiencies in programs that

of reasons, and close examination of the           should be corrected to make fraud more

operations associated with them is                 difficult.

required. Fraud schemes are often




                                               6   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                                                                                                 Frederick William Augustus von
                                                                                                 Steuben, arrived at Valley Forge with a
                                                                                                 letter of introduction from Benjamin
                                                                                                 Franklin. General Washington quickly
                                                                                                 assigned him to the position of Acting
F E A T U R E S




                                                                                                 IG––Congress officially appointed him
                         The 25th Anniversary of                                              later that spring––and charged him with
                         the Inspector General Act                                            developing and implementing a training
                                                                                              program for the American troops.
                         The IG community is celebrating the 25th
                         anniversary of the IG Act, which created                             Major General von Steuben was the first
                         the modern day version of IGs in federal                             effective IG and in many ways is still
                         agencies and departments. The IG                                     regarded as a role model for federal mili-
                         concept in the United States is certainly                                      tary and civilian IGs today. In
                         not a new one; it goes                                                         addition to bringing training,
                         back more than 225 years                                                       discipline, and accountability to
                         to the Continental Army.                                                       the Army, he was also known
                         When it was created during                                                     for his integrity and aversion to
                         1775, this army of citizen                                                     fraud and waste. (For example,
                         soldiers lacked training,                                                      Major General von Steuben
                         supplies, discipline, and                                                      “proclaimed the money depart-
                         structure. At General                                                          ment ‘a mere farce’ and said
S P E C I A L




                         Washington’s urging,                                                           that paying quartermasters
                         Congress appointed the                                                         agents a commission based on
                         first IG of the Army in                     Major General von Steuben          what they spent was ‘a pre-
                         December 1777 and charged him with                                   scription for waste.’”) While he was
                         reviewing the troops, providing instruc-                             resented by regimental colonels, Major
                         tion, instilling discipline, and reporting “all                      General von Steuben has been credited
                         abuses, neglect and deficiencies to the                              with overcoming resistance through his
                         Commander in Chief.” Congress also                                   character, tact, and intelligence.
                         wanted the IG to serve in a dual role as
                         their agent who would provide accounta-                              Two hundred years later, the federal gov-

                         bility for the significant investment it had                         ernment was in the midst of serious

                         made in the Army.                                                    financial and management scandals
                                                                                              when Congress passed the IG Act and
                         The first three Army IGs served brief                                then President Jimmy Carter signed it
                         terms and effected little, if any, improve-                          into law on October 12, 1978. The initial
                         ment. That changed when, in February                                 establishment of IGs in 13 departments
                         1778, a Prussian Army volunteer, Baron                               and agencies, each of which was




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                        7
appointed by the President and con-                added, more than doubling the number
firmed by the Senate, occurred in the              of IGs. The TVA IG, which had been cre-
wake of major financial and management             ated by the TVA Board during 1985, was
scandals in the federal government.                made statutory by the 1988 amendment.




                                                                                                 S P E C I A L
The modern IG concept was designed to              Today, 57 OIGs protect the integrity of
provide a single focal point, combining            the government; improve program effi-
audits and investigations, for the effort to       ciency and effectiveness; and prevent
deal with fraud, waste, and abuse in fed-          and detect fraud, waste, and abuse in
eral expenditures and programs. This               federal agencies. Each year, OIG audits,
type of coordination and leadership was            inspections, and evaluations identify bil-
also intended to strengthen cooperation            lions of dollars in potential savings or
between the agencies and the                       questioned costs, while OIG investiga-
Department of Justice in investigating             tions lead to thousands of prosecutions
and prosecuting fraud cases.                       and billions of dollars in potential recov-
                                                   eries for violations of federal criminal
The IG was to have no conflicting
                                                   laws. Congress also has seen fit to
responsibilities which could divert his
                                                   expand the role of the IGs through
attention or divide his time. His sole
                                                   assignments of new responsibilities, such
responsibility was to coordinate auditing
                                                   as in the Chief Financial Officers Act, the




                                                                                                 F E A T U R E S
and investigating efforts and other policy
                                                   Reports Consolidation Act, and the
initiatives designed to promote the econ-
                                                   Federal Information Security
omy, efficiency, and effectiveness of
                                                   Management Act. These new charges
agency programs. Above all, the IGs
                                                   show that IG work “adds value” to
were to have the requisite independence
                                                   improving the efficiency, effectiveness,
to do an effective job, as they would not
                                                   and integrity of our government. We at
be faced with the inherent conflict of
                                                   TVA are proud to be part of the IG com-
interest which exists when audit and
                                                   munity and adhere to the legacy of Major
investigative operations are under the
                                                   General von Steuben: “Integrity, knowl-
authority of an individual whose
                                                   edge, and loyalty to conscience.”
programs are being audited.

To respond to changes in government,
the IG Act has been amended several
times. The most extensive amendment
occurred in 1988 when reporting require-
ments were clarified and IGs from desig-
nated federal agencies––where the
agency head appoints the IG––were




                                               8   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                       Summary of                                            We estimated TVA would save
                                                                             $6.2 million over the five-year,
                       Representative Audits
                                                                             $50 million per year contract term by

                       Audits are initiated from (1) the OIG                 negotiating an appropriate reduction

                       annual workplan, (2) additional issues                to the company’s proposed indirect

                       identified by the OIG subsequent to the               cost recovery rates. We found the

                       annual workplan, (3) issues identified by             costs proposed by the second

                       cooperative efforts with TVA manage-                  contractor were fairly stated.

                       ment, and (4) concerns raised by TVA                  Negotiations for this contract award

                       management or other stakeholders.                     are ongoing.

                       During this reporting period, we                    We determined a contractor’s pro-

                       completed 34 audits which identified                  posal to provide an alarm and access

                       over $1.9 million in questioned costs and             control system for various TVA facili-

                       almost $7 million in funds which could be             ties at a cost of about $4.6 million
A U D I T S




                       put to better use. We also identified                 was overstated. We estimated TVA

                       numerous opportunities for TVA to                     could save up to $740,000 by

                       improve program operations. Our audits                (1) correcting an error in sub-

                       included (1) pre- and postaward contract              contractor labor costs and reducing

                       audits, (2) other financial-related audits,           subcontractor indirect cost rates to

                       (3) IT reviews, and (4) operational audits.           correspond with current projections,
                                                                             (2) managing a proposed 10 percent
                       PREAWARD CONTRACT AUDITS                              contingency cost, and (3) reducing
                       To support TVA management in negotiat-                the contractor’s proposed base labor
                       ing procurement actions, we completed                 and overhead rates to correspond
                       eight preaward audits that identified                 with its forward pricing rates.
                       $6.9 million in potential savings opportu-            Negotiations with the contractor are
                       nities. Highlights of the more significant            ongoing.
                       preaward audits follow.                             We reviewed the indirect cost recov-
                                                                             ery rates proposed by a contractor
                        We reviewed the cost proposals sub-
                                                                             and three of its subsidiaries to
                            mitted by two contractors to provide
                                                                             provide scientific research and tech-
                            construction and modification
                                                                             nology development and determined
                            services for TVA’s Transmission/
                                                                             two of the company’s proposals were
                            Power Supply Program. We deter-
                                                                             overstated based on their historical
                            mined one contractor’s proposal had
                                                                             costs. We also found TVA occasion-
                            not taken into consideration the effect
                                                                             ally provides services as a subcon-
                            a contract with TVA would have on
                                                                             tractor to the contractor, who then
                            the company’s cost recovery rates.
                                                                             bills the cost back to project partici-




    T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L      9
   pants, including TVA, with a                          ment, about half, or $1.25 million,
   25 percent markup. We suggested                       may have been paid to employees
   TVA consider the reasonableness of                    who could have commuted to their
   paying the 25 percent markup on its                   assigned work location. TVA man-
   own labor costs. TVA management                       agement is negotiating a settlement
   agreed with our findings and is nego-                 with the contractor.
   tiating final contract terms with the               We determined TVA was overbilled
   contractor.                                           about $367,000 by a contractor that
                                                         provided right-of-way clearing and
CONTRACT COMPLIANCE AUDITS
                                                         restoration services. The overbilling
During this reporting period, we com-                    occurred because (1) the contractor
pleted eight contract compliance audits                  used incorrect terrain classifications
that identified about $1.9 million in ineligi-           to bill TVA, (2) the contractor billed
ble and unsupported costs.                               handling charges not provided for in
Management generally agreed with our




                                                                                                    A U D I T S
                                                         the contract, and (3) miscellaneous
findings and has taken or plans to take                  billing and payment errors were
corrective action. Highlights of some of                 made. TVA is negotiating resolution
the more significant audits follow.                      of the overbillings with the contractor.
                                                       We determined a contractor had
 An OIG investigation of per diem pay-
                                                         overbilled TVA about $75,000 for
   ments to craft employees by a con-
                                                         cellular telephone equipment and
   tractor on three specific jobs found
                                                         services due to the (1) inclusion of
   the contractor had paid approxi-
                                                         unallowable sales taxes and
   mately $85,000 in per diem to craft
                                                         (2) inconsistent application of a
   employees who had not met the
                                                         discount TVA was to receive. TVA
   contract’s mileage requirement. We
                                                         management agreed with our findings
   audited all per diem payments under
                                                         and is working with the contractor to
   the contract and found an additional
                                                         resolve the overbillings.
   $208,000 in per diem payments to
                                                       We reviewed the temporary living
   craft employees who did not meet
                                                         allowance certifications approved for
   the mileage requirement. Also, an
                                                         two contractors working on the BFN
   estimated $2.5 million in per diem
                                                         Unit 1 recovery and found that 31 of
   had been paid to craft employees
                                                         the 439 approved certifications did
   who appeared to meet the mileage
                                                         not have adequate documentation to
   requirement but could not prove they
                                                         determine if contract requirements
   met an additional contract require-
                                                         had been met. TVA is obtaining addi-
   ment of obtaining and occupying
                                                         tional documentation from the con-
   temporary lodging. Of those who
                                                         tractor. We also referred 49 other
   met the contract’s mileage require-




                                                 10   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                            certifications which met the contract’s        determined the standardization initiative
                            eligibility requirement to OIG                 is an ongoing effort, and the level of
                            Investigations for further review due          progress varies by FPG organization.
                            to questionable information included           We also found numerous barriers to the
                            on the certifications, such as several         standardization effort. As a result of our
                            individuals claiming the same perma-           review, the COO plans to (1) ensure the
                            nent residence.                                goals and objectives of standardization
                                                                           are clearly understood, (2) provide specif-
                       OPERATIONAL AUDITS
                                                                           ic direction, and (3) perform gap analyses
                       Heavy Equipment Division (HED)
                                                                           at the fossil plants.
                       Operations

                       HED is a self-supporting TVA organiza-              FINANCIAL-RELATED AUDITS

                       tion that provides services including               During this reporting period, we complet-
                       equipment rental, repair, maintenance,              ed 12 financial-related audits, including 3
                       trucking services, heavy moving and lift-           audits of TVA’s external auditor reviews
A U D I T S




                       ing, and tool rental. We assessed HED’s             of interim financial information for the first
                       policies and practices relating to                  three quarters of fiscal year 2003.
                       accounting, billing, and use of its                 Highlights of the audits follow.
                       equipment. We determined HED’s
                                                                            We determined controls were in place
                       (1) equipment inventory and record-
                                                                              and functioning, in all material
                       keeping could be improved, (2) costs
                                                                              respects, for identification of asset
                       were accurately recorded with the
                                                                              retirements associated with TVA’s
                       possible exception of the recording of
                                                                              capital funding process and ensuring
                       rental equipment, (3) billing rates
                                                                              the retirements were recorded
                       adequately covered operating costs, and
                                                                              accurately. However, we identified
                       (4) equipment could be utilized more
                                                                              several process improvement
                       effectively in some instances. HED has
                                                                              opportunities for management’s
                       taken steps to improve accountability
                                                                              consideration. TVA management is
                       and equipment use.
                                                                              taking action to implement most of
                       Work Management Standardization                        our recommendations.
                       We assessed the status of the Chief                  We determined, in all material
                       Operating Officer’s (COO) work manage-                 respects, (1) TVA’s revenue from sales
                       ment standardization initiative in the                 of electricity to municipalities and
                       Fossil Power Group (FPG) that was initi-               cooperatives, directly served indus-
                       ated to achieve (1) greater efficiency,                tries, and federal agencies was fairly
                       (2) greater consistency, (3) use of best               reported in the general ledger for
                       practices, (4) transfer of knowledge, and              fiscal year 2002; and (2) power
                       (5) increased workforce mobility. We                   invoices were accurately calculated.




    T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L      11
   However, during the audit, TVA man-                ent oversight. As a result, the liability
   agement identified immaterial billing              was not correctly reported on TVA’s
   errors and took action to correct                  unaudited financial report for the
   those billing errors and improve relat-            period ending December 31, 2002.
   ed controls.                                       TVA personnel made the appropriate
 We determined the accuracy of daily                 correcting entry upon discovering the
   and estimated monthly generation                   error.
   data which TVA uses to estimate                  We concluded that, in all material
   unbilled revenue could be improved.                respects, adequate controls existed
   TVA has taken, or plans to take,                   and were being followed for pay-
   appropriate corrective action.                     ments made in TVA’s system without
 We determined TVA’s proposed 2003                   a contract or purchase order during
   tariff rates for transmission, schedul-            fiscal year 2002.
   ing, and reactive power were fairly              We found no instances where TVA’s




                                                                                                  A U D I T S
   stated.                                            external auditor’s reviews of TVA
 We determined one TVA organization                  interim financial information for the
   that provides services to external                 first three quarters of 2003 did not
   customers did not recover about                    comply with Government Auditing
   3 percent of its fiscal year 2002                  Standards in all material respects,
   indirect costs because overhead                    including required communications to
   rates were applied based on                        appropriate parties.
   perceived market conditions and
                                                   INFORMATION TECHNOLOGY
   prior-year calculations rather than
                                                   AUDITS
   current overhead calculations. In a
                                                   During this reporting period, we complet-
   related matter, we also found the
                                                   ed audits in the IT environment pertaining
   organization’s overhead calculation
                                                   to (1) software used to secure TVA main-
   methodology resulted in a net over-
                                                   frame resources, (2) security and soft-
   statement of the rate, which would
                                                   ware change controls and continuity
   have led to overcharges if the calcu-
                                                   planning for the fixed assets system, and
   lated rate had been applied. TVA
                                                   (3) TVA’s newly developed Electronic Fuel
   management is taking appropriate
                                                   Supply Request for Proposal System.
   corrective action.
                                                   We found improvements were needed to
 We determined TVA’s decommission-
                                                   address weaknesses in the following
   ing liability was accurately calculated.
                                                   areas:
   During the audit, we noted TVA
   personnel discovered an error in
                                                    Logical security controls designed to
   recording the liability in TVA’s
                                                      prevent unauthorized access to sys-
   accounting records due to an appar-
                                                      tem programs and data.




                                              12   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                        Compliance with TVA and industry                 initiatives, (3) implement a TVA-wide
                            standards for certain implementation          security awareness initiative, and
                            options, table entries, and access            (4) implement an automated security risk
                            controls.                                     assessment and analysis tool. TVA man-
                                                                          agement agreed with and has taken or
                       In addition, we reviewed the compliance            plans to take action to address D&T’s
                       of TVA’s IT security program with the              recommendations.
                       Federal Information Security
                       Management Act and determined TVA                  Information Technology Security
                       management has made progress in cor-               Assessment Project

                       recting security weaknesses. However,              During this reporting period, the IT
                       improvements could be made regarding               Security Assessment Project team,
                       (1) integration of TVA’s IT security pro-          which consisted of resources from TVA’s
                       gram across all TVA computer resources             Information Services, the OIG, and out-
                       and (2) increasing the emphasis among              side consultants, completed internal
A U D I T S




                       TVA organizations to assure adequate               assessments of TVA’s IT security infra-
                       protection.                                        structure. The assessments consisted of
                                                                          risk and vulnerability analyses, and identi-
                       TVA management agreed with our find-               fied vulnerabilities related to access con-
                       ings and is taking appropriate corrective          trol, system configuration, and operating
                       action.                                            system controls. The risk analyses fur-

                       NON-AUDIT SERVICES                                 ther identified a need for an agency-wide
                                                                          policy to govern the protection of TVA’s
                       Non-Nuclear Physical Security
                                                                          information assets. TVA management is
                       We contracted with Deloitte and
                                                                          reviewing the results and taking appropri-
                       Touche’s (D&T) Security Management
                                                                          ate corrective action.
                       Group to perform a follow-up review of
                       the security of TVA’s non-nuclear facili-
                       ties. D&T concluded that TVA’s efforts to
                       enhance the security of facilities have
                       been significant. However, D&T also
                       identified various opportunities for TVA to
                       improve its physical security, including
                       taking steps to (1) ensure historical evi-
                       dence and current intelligence are con-
                       sidered in TVA’s threat determination,
                       (2) ensure countermeasures are based
                       on greatest long-term return and inte-
                       grated with existing and planned security




    T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L     13
Summary of                                            four to six months, and payment of
                                                      restitution to the credit card compa-
Representative
                                                      nies. The TVA employee resigned
Investigations
                                                      during our investigation.

During the past six months, we closed               An individual pled guilty to making

92 investigations, including allegations              false statements in connection with a

and concerns received from ratepayers,                $100,000 loan he obtained from the




                                                                                                 I N V E S T I G A T I O N S
TVA management and employees, gov-                    TVA Economic Development Loan

ernmental and congressional staffs, and               Fund. His company filed a voluntary

OIG auditors. Our investigations, includ-             petition for bankruptcy after obtaining

ing task force projects, resulted in                  the loan, and our investigation

(1) over $1.39 million in recoveries, pro-            showed he submitted false financial

jected savings, and fines/penalties;                  information to obtain the loan from

(2) four subjects indicted; and (3) ten               TVA and a federally insured bank.

subjects convicted. To provide coverage            COAL INVESTIGATIONS
in a wide range of areas, we devoted
                                                   TVA spends more than $1.1 billion annu-
resources to investigating possible fraud
                                                   ally to purchase coal, including trans-
(particularly in the areas of coal procure-
                                                   portation costs. Based on this expense,
ment and workers’ compensation), IT
                                                   we have several projects underway to
issues, alleged employee misconduct,
                                                   identify fraud, waste, or abuse in coal
and to supporting multi-agency task
                                                   acquisition. During this reporting period,
forces. Representative investigations are
                                                   we completed two coal-related
highlighted below.
                                                   investigations.
FRAUD INVESTIGATIONS
                                                    We completed an investigation relat-
Two investigations led to convictions for
                                                      ing to use of the drafting method to
fraud during this reporting period.
                                                      weigh coal shipped on barges.

 A TVA employee with access to                       Under that method, the weight of the

   human resource records used per-                   coal is determined by measuring the

   sonal information to obtain credit                 water level on the barge before and

   cards in the names of other TVA                    after the coal is loaded and using

   employees. The employee and her                    standard charts to calculate the

   son used the cards for personal pur-               weight based on the difference. We

   chases. Both pled guilty in federal                are reviewing with TVA management

   court to two counts of mail fraud.                 the methodology of draft weights and

   Each received a sentence of five                   questions about their accuracy. We

   years’ probation, home detention of                estimated TVA overpaid a coal con-




                                              14   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                                   tractor roughly $1,000,000 and the              We previously substantiated an alle-
                                   barge company roughly $295,000                    gation that a former TVA employee
                                   based on barge weights. TVA man-                  was working while receiving benefits
                                   agement advised it would attempt to               for an injury sustained at TVA. The
                                   recover the overpayments, and it                  investigation revealed the former
                                   would take corrective action to                   employee was working as a carpen-
                                   ensure that in the future coal weights            ter but reported to the Office of
I N V E S T I G A T I O N S




                                   are accurate.                                     Workers’ Compensation Programs
                               We also investigated a variance                      (OWCP) at the Department of Labor
                                   between coal weights as determined                that he was not working. The former
                                   by TVA scales at a fossil plant and               employee was convicted of filing false
                                   invoiced by a contractor. The con-                statements to obtain benefits and
                                   tract provided that TVA weights shall             was sentenced to 8 months’ confine-
                                   govern when the variance exceeded                 ment, 36 months’ supervised release,
                                   1.5 percent, which it did for 96 per-             and payment of $22,987 in restitu-
                                   cent of the barges used. However,                 tion. During this reporting period,
                                   plant personnel failed to report these            OWCP forfeited the compensation
                                   variances to the TVA contract admin-              paid during the period covered by the
                                   istrator. We also found that the                  false statements and declared an
                                   barge company which delivered the                 overpayment of $45,898.
                                   coal failed to return the residual coal         In another investigation, we found
                                   to TVA when it removed barges from                that a former TVA employee was
                                   TVA service, as required by the con-              receiving excessive workers’ com-
                                   tract. Management is considering                  pensation benefits. OWCP subse-
                                   what action to take in response to                quently reduced the individual’s
                                   our findings.                                     benefits by $14,240 annually, result-
                                                                                     ing in a projected long-term avoided
                              WORKERS’ COMPENSATION
                                                                                     cost to TVA of $526,887.
                              INVESTIGATIONS

                              Our efforts to identify workers’ compen-            INFORMATION TECHNOLOGY
                              sation fraud continued. Anyone convict-             ISSUES

                              ed of fraud in connection with a workers’           The OIG established a forensic computer
                              compensation claim is no longer eligible            laboratory, and both Investigations and
                              to receive workers’ compensation bene-              Audit participated with TVA’s Information
                              fits. Accordingly, convictions generally            Services (IS) in a project to evaluate
                              lead to significant long-term avoided               TVA’s IT security infrastructure (as dis-
                              costs for TVA. Results during this                  cussed earlier in this report). In addition,
                              reporting period included the following.            we conducted numerous investigations




           T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L      15
of alleged computer abuse, including                 electronic devices) to BFN to use
alleged unauthorized access and                      during work. In our opinion, allowing
inappropriate usage. Representative                  contractors (or others) to bring per-
investigations included the following.               sonal computers to a TVA site posed
                                                     an unnecessary security risk. IT
 We completed an investigation con-
                                                     Security advised they would prohibit
   cerning a contractor remotely
                                                     personal computer systems and




                                                                                                I N V E S T I G A T I O N S
   accessing a TVA University (TVAU)
                                                     equipment from connecting to the
   server that contained TVA Nuclear
                                                     TVA network.
   records and making changes to a
                                                   An investigation of the circumstances
   database. We found that a TVAU
                                                     under which an intern working in IT
   employee allowed the contractor to
                                                     Security installed unauthorized tools
   remotely access and control her
                                                     on a TVA networked computer did
   computer without approval or coordi-
                                                     not show any malicious intent by the
   nation with IS. However, the
                                                     intern. It did show, however, some
   employee’s intent was to solve a
                                                     opportunities for improvement. IT
   problem, the contractor’s access was
                                                     Security’s actions included (1) limiting
   limited to fixing the problem, and
                                                     intern assignments to nonsensitive
   TVA Nuclear records were not
                                                     information; (2) improving processes
   accessed. IT Security generally
                                                     to ensure this type of incident did not
   agreed with our recommendations to
                                                     recur, including ensuring all new
   prohibit employees from allowing
                                                     employees, contractors, and interns
   others to have remote access without
                                                     are aware of applicable TVA policies;
   IS approval, to publicize this prohibi-
                                                     and (3) ensuring the new Incident
   tion, and to take measures to
                                                     Handling Procedure contains instruc-
   preclude use of programs which
                                                     tions on removing from the TVA net-
   allow such access.
                                                     work any systems where a hacker
 We investigated an alleged copyright
                                                     tool, “Trojan,” or virus is detected.
   infringement by someone using an
   internet provided address located on           EMPLOYEE MISCONDUCT ISSUES
   the TVA network at BFN to offer                Our investigations of employee miscon-
   downloads of a movie. While there              duct included alleged ethics violations,
   was insufficient evidence to deter-            harassment and discrimination, and gen-
   mine who, if anyone, misused the               eral misconduct. Our investigations
   TVA network, we found that employ-             serve several purposes, including detect-
   ees of a TVA contractor providing              ing misconduct and exonerating those
   security services were allowed to              who are improperly accused.
   bring personal laptops (and other




                                             16   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                              Representative investigations included                   action against the eight employees,
                              the following.                                           as appropriate.
                                                                                     Our investigation found a TVA
                               We investigated allegations that TVA
                                                                                       manager engaged in misconduct,
                                   employees accepted gratuities from
                                                                                       including (1) inappropriate behavior
                                   coal contractors. Investigation of a
                                                                                       outside the workplace, (2) misuse of
                                   judgmental sample of ten employees
                                                                                       his TVA travel card, (3) continuing a
I N V E S T I G A T I O N S




                                   showed eight employees accepted a
                                                                                       relationship with a subordinate after
                                   few gratuities, such as tickets to
                                                                                       being counseled to stop any activity
                                   sporting events, golf outings, and
                                                                                       that could create an appearance of
                                   meals, in violation of ethics regula-
                                                                                       favoritism, and (4) failing to reimburse
                                   tions. Our investigation also raised
                                                                                       TVA for personal calls on his TVA
                                   concerns about the candor of several
                                                                                       cellular telephone even though he
                                   of these employees. Because the
                                                                                       consistently exceeded the allotted
                                   identified violations provided sufficient
                                                                                       minutes of his calling plan. The
                                   information for management to take
                                                                                       employee subsequently resigned.
                                   corrective action, we did not further
                                                                                     A TVA employee did not promptly
                                   pursue whether other expenses listed
                                                                                       report to Employee Benefits that her
                                   in contractor records included addi-
                                                                                       son was no longer an eligible
                                   tional ethics violations. Our investiga-
                                                                                       dependent under the TVA benefit
                                   tion also raised concerns about the
                                                                                       plans. As a result, payments were
                                   approval process for acceptance of
                                                                                       made under TVA’s benefit plans for
                                   payment for travel expenses from
                                                                                       expenses incurred by her son after he
                                   nonfederal sources. In response to
                                                                                       became ineligible. TVA management
                                   our investigation, management
                                                                                       reminded the employee of her obliga-
                                   (1) took steps to ensure employee
                                                                                       tion to report matters that could
                                   awareness of and compliance with
                                                                                       affect her employment or benefits,
                                   ethics guidelines; (2) notified vendors
                                                                                       and required her to reimburse TVA for
                                   of TVA’s ethics guidelines; and
                                                                                       the ineligible claims.
                                   (3) developed an approval process for
                                                                                     We completed our investigation of
                                   acceptance of transportation, subsis-
                                                                                       the circumstances under which a
                                   tence, and related official travel
                                                                                       female contractor employee was “ini-
                                   expenses from nonfederal sources.
                                                                                       tiated” by being placed into an ice
                                   Management also took disciplinary
                                                                                       basket at a nuclear plant while ice




           T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L        17
   was being blown into the basket.                TASK FORCES
   Our investigation confirmed that a              We currently are providing the equivalent
   TVA employee sent the contractor on             of at least one full-time agent to each of
   a bogus assignment to the ice con-              three task forces––the Health Care Fraud
   denser so she could be “initiated,”             Task Force and Environmental Crimes
   and two contractor employees                    Joint Task Force, both sponsored by the
   placed her in the ice basket while the          U.S. Attorney for the Eastern District of




                                                                                                 I N V E S T I G A T I O N S
   ice was blowing. We found the prac-             Tennessee, and the Joint Terrorism Task
   tice of initiating people was common            Force, led by the Federal Bureau of
   and had been ongoing for many                   Investigation Knoxville Field Division.
   years, numerous contractor and TVA              Each is discussed below.
   employees and managers knew
   about the practice, and several peo-            Health Care Fraud Task Force

   ple knew the female contractor was              TVA operates a self-insured health bene-
   going to be initiated. Most individuals         fits plan and is generally a victim of
   we interviewed who knew about the               health care fraud investigated by the
   practice generally believed it was              Health Care Fraud Task Force. By com-
   harmless. TVA management took                   bining our resources with other govern-
   action to reinforce that horseplay              ment agencies, we can expand our
   such as this would not be                       coverage of health care fraud.
   tolerated.                                      Participants on the task force include
 We did not substantiate an allegation            investigative arms of federal, state, and
   that TVA violated the Veterans’                 local agencies, and Blue Cross/Blue
   Preference Act by failing to consider           Shield of Tennessee’s Special
   an electrician candidate’s military             Investigations Unit. Our efforts on the
   service. We determined the non-                 task force included assisting in executing
   selection of the candidate was for              search warrants, forensic computer
   other legitimate reasons.                       analysis, document analysis, interviews,
 We determined that a Nuclear Quality             and testifying at trial. Convictions during
   Assurance manager’s employment                  this reporting period included the
   was terminated for inappropriate                following.
   behavior in the workplace, rather than
                                                    An orthopedic surgeon was found
   for raising safety issues, as alleged by
                                                      guilty of 95 counts of health care
   the complainant. That individual also
                                                      fraud-related charges after a three-
   raised his complaint to the
                                                      week trial. The indictment charged
   Department of Labor.
                                                      the surgeon devised a scheme to
                                                      receive monetary payments from vari-




                                              18   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                                   ous health care benefit programs,                       wrote controlled substance pre-
                                   based upon false and fraudulent rep-                    scriptions for these two individuals
                                   resentations. The surgeon submitted                     in their names and in the names
                                   health care claims for nerve blocks                     of others, and those individuals
                                   when trigger point injections, which                    either used, sold, or returned to
                                   are lesser reimbursable procedures,                     the doctor those controlled
                                   were actually performed. Additionally,                  substances.
I N V E S T I G A T I O N S




                                   the surgeon billed for and was paid               A pharmacist pled guilty to a seven-
                                   for office visits to which he was not               count information charging him with
                                   entitled. The victim health care pro-               illegal distribution of a controlled sub-
                                   grams included Medicare, TennCare,                  stance (dihydrocodeinone), posses-
                                   and the federal workers’ compensa-                  sion of a controlled substance with
                                   tion program. The total amount                      intent to distribute, and illegal pos-
                                   fraudulently billed from approximately              session of a firearm in furtherance of
                                   October 1997 to January 2002 was                    a drug trafficking crime. He was sen-
                                   over $2.2 million.                                  tenced to a total of 63 months. He
                               A pharmacist, a physician participat-                  also forfeited over $100,000 and the
                                   ing in TVA’s health care plan, and two              seized weapons.
                                   other individuals pled guilty to divert-          A chiropractor pled guilty to six
                                   ing thousands of dollars worth of pre-              counts in four indictments. The
                                   scription drugs, as follows.                        charges included conspiracy to pos-
                                   –– The pharmacist pled guilty to six                sess with the intent to distribute a
                                         counts, including illegal distribu-           controlled substance (hydrocodone),
                                         tion of controlled substances,                carrying a firearm during and in rela-
                                         illegal possession of controlled              tion to a drug trafficking crime,
                                         substances with intent to distrib-            attempting to evade and defeat fed-
                                         ute, and obstruction of a criminal            eral income taxes, and health care
                                         investigation of health care                  fraud. Among other things, the
                                         offenses. He was sentenced to                 defendant ordered hydrocodone pills
                                         70 months’ confinement and                    using the name and Drug
                                         3 years’ supervised probation,                Enforcement Administration number
                                         and forfeited $280,000 in cash                of a medical doctor who was associ-
                                         seized during a search of his                 ated with the defendant, without the
                                         business.                                     knowledge or consent of the medical
                                   –– The doctor and two individuals                   doctor. His sentence included
                                         pled guilty to conspiracy to dis-             72 months’ imprisonment, 5 years’
                                         pense and distribute controlled               supervised release, and $40,000 in
                                         substances illegally. The doctor              fines and restitution.




           T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L        19
Environmental Crimes Joint Task
Force (ECJTF)

As we previously reported, the Denver
Environmental Crimes Task Force
requested the assistance of the ECJTF in
an investigation of a company headquar-
tered in Chattanooga, Tennessee, which




                                                                                                I N V E S T I G A T I O N S
provided workers to contractors perform-
ing asbestos abatement work throughout
the United States. The company used
unauthorized aliens by obtaining false
identification papers, using false names
when taking required training, and certi-
fying the workers had been fitted with
respirators when no fit was conducted.
This investigation led to multiple convic-
tions, including conspiracy, violations of
immigration laws, wire fraud, and money
laundering. During this reporting period,
the remaining defendant pled guilty to a
pattern of violations of immigration laws
and was fined and placed on
probation.

Joint Terrorism Task Force

We continued our participation on the
Joint Terrorism Task Force, which works
to investigate and prevent acts of terror-
ism. We have devoted one special agent
full-time to the task force, and have com-
mitted audit support on an as-needed
basis.




                                             20   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                                                                                                                                       Administrative and Disciplinary Actions
                                                                                                                                       October 1, 1998 ~ September 30, 2003*
                                                                                                                                                     T o t al = 3 1 7


                                                                                                                                                                 O ra l / W ri t t e n
                                                                                                                                                                  W a rn i n g s                                                Su s p e n s i o n s /
                                                                                                                                                                        23%                                                      D emo t i o n s /
                                                                                                   R e e m pl o y m e n t
                                                                                                                                                                                                                                  T ra n s f e rs
                                                                                                         F l ag g ed
                                                                                                                                                                                                                                        6%
                                                                                                             14%

                                                                                                                                                                                                                                           R es i g n at i o n s /
                                                                                                                                                                                                                                           R e t i re m e n t s /
I N V E S T I G A T I O N S




                                                                                                                                                                                                                                           T e rm i n a t i o n s
                                                                                                                                                                                                                                                    10%


                                                                                                                                                                                 C o u n s el i n g /
                                                                                                                                                                                 Man ag emen t
                                                                                                                                                                                 T e c h n i qu e s
                                                                                                                                                                                       47%

                                                                                                                                              *Prosecutive referrals are shown in Appendix 5.




                                                                                      Closed Cases by Area
                                                                                   April 1 ~ September 30, 2003
                                                                                              T o t al = 9 2

                                                                                                                               T ra n s m i s s i o n /
                                                                                                                                     Po w e r
                                                                                       O t h er
                                                                                                                                     Su p p l y
                                                                                       24%
                                                                                                                                        7%
                                                                                                                                                          F o s s i l Po w e r
                                             R i v e r Sy s t e m                                                                                                30%
                                             O p e ra t i o n s &
                                             E n v i ro n m e n t
                                                      13%




                                                                    T V A N u cl ear
                                                                         15%                        H u man
                                                                                                  R e s o u rc e s
                                                                                                       11%




                                                                                                                          Sources of Hotline Calls Warranting Further OIG Action
                                                                                                                                      April 1 ~ September 30, 2003
                                                                                                                                                 T o t al = 4 2


                                                                                                                                                                                                        C o n t ra c t o r
                                                                                                                                                                                  O t h er
                                                                                                                                                                                                        E m pl o y e e s
                                                                                                                                                                                   2%                                                 F o rm e r T V A /
                                                                                                                                                                                                            10%
                                                                                                                     T V A E m pl o y e e s                                                                                            C o n t ra c t o r
                                                                                                                            38%                                                                                                        E m pl o y e e s
                                                                                                                                                                                                                                            7%




                                                                                                                                                                                                                     G e n e ra l P u b l i c
                                                                                                                                                                                                                             43%




           T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                                                                          21
We continued to follow issues of interest        drop to fulfill our mission to our agencies,
to the IG community and to TVA, includ-          Congress, and the public.




                                                                                                L E G I S L AT I O N A N D R E G U L AT I O N S
ing legislation introduced in the House
                                                 We also are discussing the OIG budget
and Senate to expand the size of the
                                                 process with the TVA Board and mem-
TVA Board and proposals to deregulate
                                                 bers of Congress. We understand the
the electric utility industry. We believe
                                                 budgets for all other Presidentially
the pros and cons of this proposed legis-
                                                 appointed IGs are included as a separate
lation are being fully explored, and look
                                                 appropriation account approved by
forward to working with both TVA and
                                                 Congress. TVA maintains, however, that
Congress in these matters.
                                                 the provisions of law which control the
In part because this is the 25th anniver-        budget process at other OIGs do not
sary of the IG Act, there has been               apply to TVA as a wholly owned govern-
renewed discussion of possible ways to           ment corporation. While this Board has
improve the IG concept, including ensur-         been fully supportive of this office and
ing IG independence. Issues being dis-           our budget, there is an appearance issue
cussed include set terms for IGs,                where the head of the agency has con-
consolidation of smaller IG offices into         trol over the IG budget with no inde-
larger ones, and independent personnel           pendent third-party review. We intend to
authority. We fully support continued            pursue this issue further to achieve a sat-
pursuit of ways to augment the IG con-           isfactory resolution to ensure the process
cept, and have discussed these and               for approving the OIG budget preserves
other suggestions both within the IG             OIG independence in both fact and
community and with individual members            appearance.
of Congress. We will continue to work
with the community and Congress to
ensure we have the best legislative back-




                                            22   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                                             THIS PAGE IS INTENTIONALLY LEFT BLANK.




T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L     23
APPENDICES




    24   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                         Index of Reporting Requirements Under the Inspector General Act
                         REPORTING REQUIREMENT                                                                                         PAGE



                         Section 4(a)(2)       Review of Legislation and Regulations                                                     22


                         Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                                          6-21


                         Section 5(a)(2)       Recommendations With Respect to Significant Problems, Abuses, and Deficiencies          6-21


                         Section 5(a)(3)       Recommendations Described in Previous Semiannual Reports on Which
                                               Corrective Action Has Not Been Completed                                           Appendix 4
1




                         Section 5(a)(4)       Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                                               That Have Resulted                                                                 Appendix 5
A P P E N D I X




                         Section 5(a)(5)       Summary of Instances Where Information Was Refused                                      None
                         and 6(b)(2)


                         Section 5(a)(6)       Listing of Audit Reports                                                           Appendix 2


                         Section 5(a)(7)       Summary of Particularly Significant Reports                                             9-21


                         Section 5(a)(8)       Status of Management Decisions for Audit Reports Containing Questioned Costs       Appendix 3


                         Section 5(a)(9)       Status of Management Decisions for Audit Reports Containing Recommendations
                                               That Funds Be Put to Better Use                                                    Appendix 3


                         Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                                          Reporting Period                                                                             None


                         Section 5(a)(11) Significant Revised Management Decisions                                                     None


                         Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed                  None




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                           25
Audit Reports Issued
AUDIT REPORT
NUMBER                                         QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                               COSTS       COSTS     BETTER USE

CONTRACT

2003-013C-01
04/01/2003     EPRI 501––Preaward

2003-013C-02
04/01/2003     EPRI Solutions––Preaward

2003-013C-03
04/01/2003     EPRI PEAC Corporation––                                                 $11,000




                                                                                                           A P P E N D I X
               Preaward

2003-013C-04
04/01/2003     Global Energy Partners, LLC––
               Preaward

2003-033C-01
04/29/2003     PSC Safety and Health
               Services, Inc.––Preaward

2003-003C
06/17/2003     Page Clearing Contractors        $367,649

2003-050C
06/27/2003     L.E. Myers––Preaward

2003-051C
07/11/2003     Henkels & McCoy––                                                     6,200,000
               Preaward

2003-021C
07/25/2003     Cleveland Automatic
               Sprinklers, Inc.

2003-033C-02
07/28/2003     PSC Safety and Health                  495
               Services Inc.––Contract
               No. 00004366

2003-038C


                                                                                                           2
08/05/2003     Temporary Living Allowance
               Program

2003-027C
09/17/2003     Ferguson Harbour––                    3,455              $3,455
               Contract No. 0002663

2002-082C
05/20/2003     Verizon Wireless                     74,594

2002-080C
08/07/2003     L. E. Myers Company––Contract    1,461,817            1,254,039
               No. 96P6G-156829-001

2003-035C
08/11/2003     Lockheed Martin––Preaward                                               740,000

2003-048P
08/12/2003     Voith Siemens Hydro––Chatuge
               Delay Claim




                                               26            SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                         Audit Reports Issued
                         AUDIT REPORT
                         NUMBER                                                           QUESTIONED UNSUPPORTED FUNDS PUT TO
                         AND DATE     TITLE                                                 COSTS       COSTS     BETTER USE

                          F I NA N C I A L
                         2003-011F
                         04/15/2003                Controls Over TVA’s Passport
                                                   Payments Not Associated With a
                                                   Contract or Purchase Order

                         2003-017F
                         04/15/2003                Fiscal Year 2003 First Quarter Financial
                                                   Information
2




                         2003-032F
                         05/20/2003                Integrity of Generation Data Used to
                                                   to Estimate Unbilled Revenue

                         2003-030F
A P P E N D I X




                         05/22/2003                Calculation of Selected Components
                                                   of the Transmission Tariff

                         2003-017F-01
                         06/09/2003                TVA’s Second Quarter Financial
                                                   Information

                         2003-028F
                         06/13/2003                TVA’s Nuclear Decommissioning
                                                   Liability

                         2003-052F
                         06/19/2003                TVA’s Compliance With the Green
                                                   Pricing Accreditation Program
                                                   Requirements for Calendar Year 2002

                         2003-015F
                         07/28/2003                Completed Plant Retirements

                         2003-019F-01
                         07/31/2003                RSO&E’s Indirect Cost Recovery
                                                   Rates

                         2003-017F-02
                         08/14/2003                TVA’s Third Quarter Financial
                                                   Information

                         2003-012P-02
                         06/09/2003                Accounting for Purchase Discounts

                         2002-043T-02
                         04/04/2003                Revenue from Sales of Electricity
                                                   for Fiscal Year 2002




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                            27
Audit Reports Issued
AUDIT REPORT
NUMBER                                                    QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                          COSTS       COSTS     BETTER USE

INFORMATION TECHNOLOGY
2003-058F
09/15/2003          Financial Information Security
                    Management Act

2003-025P
08/12/2003          Electronic Coal Supply RFP
                    System

2003-014T




                                                                                                                     A P P E N D I X
05/16/2003          Resource Access Control Facility

2002-092T
06/19/2003          Fixed Assets System General
                    Computer Controls


O P E R A T I O NA L
2003-012P-01
06/09/2003          Heavy Equipment Division
                    Operations

2003-039P
09/16/2003          Process Standardization

TOTAL               34                                   $1,908,010             $1,257,494           $6,951,000*


* This figure includes funds identified in preaward audits of proposals for contracts that may not be awarded.




                                                                                                                     2




                                                           28          SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                         Audit Reports Issued With Questioned Costs
                                                                                                              QUESTIONED COSTS
                                                                                         NUMBER             TOTAL    UNSUPPORTED




                         A.     For which no management decision has been
                                made by the commencement of the reporting period           2                 $136,786                  $0

                         B.     Which were issued during the reporting period              5               $1,908,010          $1,257,494

                         Subtotals of A and B                                              7              $2,044,796         $1,257,494

                         C.     For which a management decision was made during
3




                                the reporting period                                       4*                $214,835              $3,455

                                (i) Dollar value of disallowed costs                       3                 $137,299              $3,455

                                (ii) Dollar value of costs not disallowed                  2                  $77,536                  $0
A P P E N D I X




                         D.     For which no management decision has been made by
                                the end of the reporting period                            3               $1,829,961          $1,254,039

                         E.     For which no management decision was made within
                                six months of issuance                                     0                        $0                 $0


                         * The total number of reports for which a management decision was made during the period differs from the sum of
                           C.(i) and C.(ii) when the same reports contain both costs disallowed and not disallowed by management.




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                  29
Audit Reports Issued With Recommendations for Better Use of Funds
                                                                          NUMBER              DOLLAR VALUE




A.   For which no management decision has been
     made by the commencement of the reporting period                         0                           $0

B.   Which were issued during the reporting period                            3                   $6,951,000

Subtotals of A and B                                                          3                 $6,951,000

C.   For which a management decision was made during
     the reporting period                                                     3*                  $6,951,000




                                                                                                                   A P P E N D I X
     (i) Dollar value of disallowed costs                                     3                   $6,551,000

     (ii) Dollar value of costs not disallowed                                1                     $400,000

D.   For which no management decision has been made by
     the end of the reporting period                                          0                           $0

E.   For which no management decision was made within
     six months of issuance                                                   0                           $0


* The total number of reports for which a management decision was made during the period differs from the sum of
  C.(i) and C.(ii) when the same reports contain both costs disallowed and not disallowed by management.




                                                                                                                   3




                                                        30          SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                         Audit Reports With Corrective Actions Pending
                         Final corrective actions on recommendations in two preaward contract audits, four contract compliance audits, four
                         operational audits, two financial-related audits, and eight information technology audits had not been fully implemented
                         as of September 30, 2003; however, all are being implemented in accordance with currently established milestones.

                         AUDIT REPORT
                         NUMBER
                         AND DATE                      DESCRIPTION




                         2000-012P                      TVA’s Affirmative Procurement Plan for Items Containing Recovered Materials
                         01/09/2002                     This report included recommendations to clarify several provisions in TVA’s Affirmative
                                                        Procurement Plan and to ensure documentation is maintained to support waivers from the
                                                        revised plan. TVA will be issuing a revised plan to address these issues shortly.
4




                         2000-026C-01                   Adecco Technical
                         04/02/2001                     This report contained a recommendation to implement electronic data processing to collect
                                                        hours and rates billed for staff augmentation services and evaluate systems to determine how
                                                        to best meet these data processing needs. Representatives from several TVA organizations are
A P P E N D I X




                                                        implementing reengineered processes for managing TVA’s contract workforce. A recommenda-
                                                        tion for enabling technology in contract workforce management is expected in October 2003.

                         2000-030P                      TVA’s Active Employee Medical Plan Eligibility
                         08/13/2002                     This report contained recommendations to pursue recovery of ineligible payments and
                                                        strengthen eligibility-related processing controls. TVA management has completed action on
                                                        the pursuit of ineligible payments but has not yet established a timetable for completing
                                                        enhanced dependent updating capability.

                         2001-032F                      Internal Controls Over Real Estate Transactions
                         11/07/2001                     This report included recommendations to institute an updated land management business
                                                        practice and revise, update, and/or integrate processes and systems to facilitate better
                                                        communication among TVA organizations. TVA management will complete actions addressing
                                                        these recommendations in early October 2003.

                         2001-064T                      Hydro Automation Security––HDCC
                         12/21/2001                     This report included recommendations to upgrade firewall hardware and software, upgrade
                                                        server and operating system security, and develop and implement policies and procedures to
                                                        address access authorization, intrusion detection, program change control, and contingency
                                                        planning and disaster recovery. All recommendations have been implemented with the excep-
                                                        tion of the change control procedure. Change control procedures will be implemented by the
                                                        end of June 2004.

                         2001-074T                      Application Review of Pegasys
                         01/07/2002                     This report contained recommendations regarding facility access control. TVA has implemented
                                                        temporary controls to address some of the audit findings until it decides whether to upgrade or
                                                        replace the existing system. A decision on the system should be made by the end of
                                                        December 2003.

                         2001-087C                      Canberra Industries
                         04/30/2002                     This report included recommendations to recover ineligible costs and improve contract adminis-
                                                        tration. TVA has taken action to address the contract administration issues. Although TVA is
                                                        negotiating with the contractor on settlement of ineligible costs, the contractor has not yet
                                                        agreed.

                         2002-004C-01                   Electric Power Research Institute
                         07/24/2002                     This report included recommendations to strengthen contract terms in several areas and
                                                        improve recordkeeping of costs incurred by the contractor. Although TVA is negotiating with
                                                        the contractor to try and incorporate recommended changes in the contract, the contractor has
                                                        not yet agreed.




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                         31
Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE       DESCRIPTION



2002-012T-01   Nuclear Facility Access Control Systems Security––Sequoyah Nuclear Plant
10/25/2002     This report contained recommendations regarding facility access control. TVA is implementing
               these recommendations and plans to complete final action by the end of October 2003.

2002-013T      Customer Portal Control Assessment
07/24/2002     This report included recommendations to improve user authentication, upgrade server authenti-
               cation controls and operating system security, upgrade firewall software, and develop methods
               for regular reviews of firewall security logs. TVA IS implemented a security product to provide
               authentication and authorization services for the Customer Portal. TVA management is testing a




                                                                                                                   A P P E N D I X
               new infrastructure and software to replace the Customer Portal, with delivery expected in
               October 2003.

2002-017T      Hydro Automation––Dams
06/25/2002     This report included recommendations to protect computer equipment from water damage,
               ensure that computers comply with guidelines, document a contingency plan, develop and
               implement a formal software change control procedure, and strengthen firewall access authori-
               zation and administration. All recommendations have been implemented with the exception of
               the change control procedure. Change control procedures will be implemented by the end of
               June 2004.

2002-025T      Security of Windows 2000/Windows XP
08/07/2002     This report contained recommendations to strengthen environmental and logical controls of
               TVA’s implementation of Windows 2000 and Windows XP. TVA management agreed with and is
               implementing recommendations through (1) an IT security policy and program management plan
               which have been issued, (2) implementing procedures now awaiting final review by organization-
               al security officers, and (3) reviews of physical security at some sites. The implementing proce-
               dures and physical security reviews are expected to be completed by the end of December
               2003.

2002-043T-01   Power Billing System Security and Application Controls
01/06/2003     This report included recommendations to improve physical and logical controls, ensure only
               authorized changes are made to computer programs, and develop and test formal contingency
               plans. TVA management agreed with and is implementing corrective action to address these
               recommendations.

2002-045V      Laroche Industries, Inc.––Preaward


                                                                                                                   4
02/07/2003     This report contained recommendations to disallow the current supplier’s requested price
               increase and review the pricing method included in the contract. TVA Procurement established
               a Joint Project Team to review the issues. TVA continues to pay the questioned price increase
               to the current supplier, but is in the process of negotiating with other suppliers for a pricing
               arrangement that would be more favorable to TVA.

2001-091P      Capital Project Results
09/05/2002     This report included recommendations to define estimate types and their expected reliability;
               require organizations to provide supporting documentation for funding requests in advance of
               quarterly Project Review Committee meetings; and consider revising the Project Justification
               System database to incorporate “real time” data, including completed project information.
               Management has prepared a procedure addressing these recommendations. Review and
               approval of the procedure is expected by the end of October 2003 with procedure issuance
               shortly thereafter.




                                                 32          SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                         Audit Reports With Corrective Actions Pending
                         AUDIT REPORT
                         NUMBER
                         AND DATE                      DESCRIPTION



                         2002-051T                      IT Store
                         09/27/2002                     This report contained recommendations to strengthen IT Store purchase approval controls. TVA
                                                        management has drafted new standard program/process documents to address the IT Store
                                                        procurement process, and they will be published following final approval by Chief Operating
                                                        Officer management.

                         2002-051V                      Investment Recovery’s Program for GSA Materials Redeployment
                         03/26/2003                     This audit included recommendations to determine the value of property received subject to
                                                        reimbursement or appropriation investment provisions of the TVA Act, limit the uses of GSA sur-
4




                                                        plus property to those which are consistent with GSA rules, correct the weaknesses of a per-
                                                        sonal services contract forming a bartering arrangement, and improve the process for tracking
                                                        property obtained through the GSA program. Management agreed with all our findings.
                                                        Management is negotiating with GSA to determine an appropriate reimbursement, has reevalu-
                                                        ated the process for future GSA acquisitions, has discontinued the bartering agreement, and
A P P E N D I X




                                                        updated the GSA database addressing discrepancies.

                         2002-071C                      Diversified Pharmaceutical Services, Inc.
                         03/19/2003                     This report contained recommendations to pursue recovery of ineligible payments. TVA man-
                                                        agement has negotiated a settlement agreement with the contractor and is in the process of
                                                        collecting the funds.

                         2002-075E                      Integrity of Selected Fossil Power Data Input Into Model KW3000
                         03/03/2003                     This report included recommendations to improve the integrity of selected fossil data used in
                                                        TVA’s energy trading decision support model. TVA management initiated actions on all recom-
                                                        mendations and has either completed or is in the process of completing actions to address the
                                                        recommendations.

                         2003-005C                      Numanco LLC––Labor Markup Rates––Preaward
                         11/19/2002                     We reviewed the salary burden proposals submitted by two competing contractors to provide
                                                        staff augmentation services for the BFN Unit 1 recovery. We found the burden rates proposed
                                                        by one contractor included overstated taxes, insurance, and overhead costs. Based on our
                                                        suggestions, TVA management negotiated reduced rates that should save TVA up to $408,000
                                                        over the five-year contract period. We also found the overall burden rate proposed by the other
                                                        contractor was not materially misstated. Following the end of this reporting period, TVA man-
                                                        agement resolved the last issue by issuing a contract supplement with lower insurance burden
                                                        rates based on actual contractor insurance costs.




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                         33
Investigative Referrals and Prosecutive Results*


Referrals

          Subjects Referred to U.S. Attorneys                                                           63
          Subjects Referred to Other Agencies for Investigative or Administrative Action                 2


Results

          Subjects Indicted                                                                              4
          Subjects Convicted                                                                            10
          Referrals Declined                                                                            35




                                                                                                                      A P P E N D I X
          As a result of our investigations, OWCP reduced benefits for one former employee, resulting in a
          projected savings of $526,887 over the individual’s lifetime and declared a forfeiture of $45,898
          in benefits received by another individual.


* The numbers below include task force activities.




                                                                                                                      5




                                                           34           SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2003
                                                                         SEPT 30,       MAR 31,        SEPT 30,         MAR 31,     SEPT 30,
                                                                           2003          2003            2002            2002         2001

                          ANNUAL BUDGET (In Millions of Dollars)           $8.5            8.5             8.0             8.0*        8.6
                          CURRENT STAFFING                                  78             84              87              86          86

                           AUDITS & SPECIAL PROJECTS

                          AUDITS IN PROGRESS
                          Carried Forward                                   38              35**            33              38          45
                          Started                                           41              41              44              43          44
                          Canceled                                           (8)             (4)             (4)             (8)         (4)
                          Completed                                        (34)            (34)            (40)            (40)        (47)
                          In Progress at End of Reporting Period            37              38              33              33          38

                          AUDIT RESULTS (Thousands)
H I G H L I G H T S




                          Questioned Costs                               $1,908        $1,125          $3,816          $1,780       $3,519
                          Disallowed by TVA                                 137           989             911             267        1,236
                          Recovered by TVA                                3,499           221             387             225        1,634

                          Funds to Be Put to Better Use                  $6,951       $34,755         $52,037         $31,874      $10,401
                          Agreed to by TVA                                6,551        37,969          44,944           6,069       10,155
                          Realized by TVA                                     0        38,172          16,014           6,090        8,277

                          NONAUDIT SERVICES
                          Completed                                          15              36             16              12            0
                          Cost Savings Identified/Realized (Thousands)        0               0              0               0            0


                           I N V E S T I G AT I O N S * * *

                          INVESTIGATION CASELOAD
                          Opened                                           100              87              78             93          94
                          Closed                                            92              75              89            114         120
                          In Progress at End of Reporting Period           135             127             115            126         147

                          INVESTIGATIVE RESULTS (Thousands)
                          Recoveries                                      $100           $879            $961           $233        $5,862**
                          Savings                                          875            366               8           1,175          542
                          Fines/Penalties                                  421             56              86             0.1          114**

                          ADMINISTRATIVE AND
                          DISCIPLINARY ACTIONS
                          Recommended (# of Cases)                           21              15             18              22          13
                          Actions Taken (# of Subjects)                      24              16              7               6           8
                          Counseling/Management
                             Techniques Employed (# of Cases)                21              16             24              15            3

                          PROSECUTIVE ACTIVITIES (# of Subjects)
                          Referred                                           63              12             19                5         13
                          Indicted                                            4               6              9                5          5
                          Convicted                                          10               4              4                3          7

                            * Reduction represents the transfer of certain benefit costs to corporate rather than organizational
                              expense accounts.
                           ** Adjusted from previous reporting period.
                          *** The numbers below include task force activities.




       T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                     35
                     Tennessee Valley Authority
                    Office of the Inspector General



Help Track Down Fraud,
Waste, and Abuse at TVA




     Contact the OIG Hotline
        1-800-323-3835
 To report:
 •   Contract or computer fraud          •    Theft or misuse of TVA
 •   Computer misuse or crimes                property
 •   False statements or false           •    Management reprisal
     claims                              •    Workers’ compensation fraud
 •   Irregularities in financial         •    Bribery, kickbacks, or
     reporting                                gratuities
 •   Conflicts of interest and other     •    Health care fraud
     ethics violations                   •    Environmental, health, and
 •   Travel fraud                             safety violations


           For additional information, see our Web site at oig.tva.gov
                 The OIG Vision:
         . . . illuminating today’s challenges
             and tomorrow’s solutions . . .




OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY
                     400 WEST SUMMIT HILL DRIVE
                   KNOXVILLE, TENNESSEE 37902-1401
